ER-B-98-06




                 AUDIT             FLUOR DANIEL FERNALD’S
                REPORT                     USE OF
                                    TEMPORARY SERVICES
                                      SUBCONTRACTORS




                                              APRIL 1998




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                         DEPARTMENT OF ENERGY
                                            Washington, DC 20585

                                                      April 1, 1998

MEMORANDUM FOR THE MANAGER, OHIO FIELD OFFICE

FROM:                 Terry L. Brendlinger
                      Eastern Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Fluor Daniel Fernald's Use of Temporary
                      Service Subcontractors"

BACKGROUND

The Department of Energy (Department) and Fluor Daniel Fernald (Fluor Daniel) implemented two work
force restructurings at the Fernald Environmental Management Project between Fiscal Years (FY) 1994 and
1996. During the restructurings, the Department's cost for temporary service subcontracts increased from
$2.8 million to $9.8 million annually. The objective of this audit was to determine whether Fluor Daniel
utilized temporary service agreements in an economical and efficient manner and in accordance with the
policy and goals of the Department's Work Force Restructuring Program.

RESULTS OF AUDIT

Fluor Daniel did not utilize temporary service agreements in an economical and efficient manner nor in
accordance with the policy and goals of the Department's Work Force Restructuring Program. Fluor Daniel
was required by the terms of its contract to postpone hiring new employees during work force restructuring,
and to retain as many displaced employees as possible by placing them in open positions or by retraining
them for future jobs. Despite these requirements, Fluor Daniel used temporary service subcontractors to
replace separated employees and to occupy positions which could have been offered to separated employees.
These conditions occurred because the Ohio Field Office did not effectively monitor Fluor Daniel's
restructuring efforts and its use of temporary service subcontractors. As a result, the Department's
restructuring goals were not fully achieved, and the annual cost for temporary service workers increased by
$7 million while the Department spent $13.7 million to separate Fluor Daniel employees. Further, the
Department reimbursed Fluor Daniel at least $405,000 for unreasonable separation incentives.

We recommended that the Manager, Ohio Field Office, require Fluor Daniel to discontinue the practice of
replacing permanent employees whose jobs are being eliminated with temporary workers and ensure that
subcontract labor is considered in future work force restructuring analyses and plans; closely monitor Fluor
Daniel's restructuring efforts and temporary service subcontracts to ensure compliance with contractual
requirements and Departmental policy and goals; and recover $405,000 from Fluor Daniel for unreasonable
separation benefits.
                                                    -2-


   MANAGEMENT REACTION

   Management agreed to require Fluor Daniel to discontinue the practice of replacing permanent
   employees with temporary workers and to include subcontract labor in future restructuring analyses
   and plans. Also, management agreed to more closely monitor Fluor Daniel's restructuring efforts and
   temporary service subcontracts. However, management did not agree to recover $405,000 for
   questionable separation benefits because management considered the costs to be reasonable and
   allowable.




Page 10
FLUOR DANIEL FERNALD'S USE OF TEMPORARY SERVICE
SUBCONTRACTORS


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Observations and Conclusions.................................................. 2


               Inappropriate Use of Temporary Workers

               Details of Finding ......................................................................3

               Recommendations and Comments ............................................6


               Appendix 1

               Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   The Department of Energy (Department) and Fluor Daniel Fernald
OBJECTIVE          (Fluor Daniel) implemented two work force restructurings at the Fernald
                   Environmental Management Project (Fernald Project) between Fiscal
                   Years (FY) 1994 and 1996. The restructurings were necessitated by
                   budget reductions and the need to change the mix of workers' skills to
                   environmental cleanup and restoration. The Department spent about
                   $13.7 million for the restructurings.

                   The Office of Inspector General (OIG) issued an audit report in April
                   1996 dealing with the restructuring of the work force at the Fernald
                   Project. In Report ER-B-96-01, Audit of Work Force Restructuring at
                   the Fernald Environmental Management Project, we concluded that as
                   of September 30, 1995, the restructurings were not effective in reducing
                   staffing levels or in improving the mix of workers' skills. We reported
                   that Fluor Daniel spent $2.9 million to separate 255 employees in
                   October 1993. However, by September 30, 1994, all but 14 of the
                   employees separated were either rehired or replaced by new employees
                   with similar skills. The second restructuring began in October 1994 and
                   was not completed in April 1996. However, the restructuring has
                   subsequently been completed. We recommended that the Department
                   (1) require Fluor Daniel to perform a comprehensive skills analysis,
                   review the skills of employees scheduled to be separated, and encourage
                   employees with skills that are needed to retain their jobs; (2) develop
                   future restructuring plans based on comprehensive skills analyses in
                   accordance with Departmental guidance; and (3) monitor Fluor Daniel's
                   restructuring activities to ensure that the Department's objectives are
                   met. Management agreed that there were some deficiencies in the first
                   restructuring and concurred with the audit recommendations.
                   Management stated that corrective actions were taken in the second
                   restructuring, and that the second restructuring was meeting the
                   Department's objectives.

                   The Department's cost for temporary service subcontracts increased
                   significantly while the work force was being restructured at the Fernald
                   Project. In FY 1994, when the first restructuring took place, the
                   Department spent $2.8 million for temporary service subcontracts.
                   However, in FY 1996, when the second restructuring was in its final
                   stages, the cost for temporary service subcontracts increased to $9.8
                   million.




Page 1                                                   Fluor Daniel Fernald's Use of
                                                     Temporary Service Subcontractors
                   The objective of this audit was to determine whether Fluor Daniel utilized
                   temporary service agreements in an economical and efficient manner and
                   in accordance with the policy and goals of the Department's Work Force
                   Restructuring Program.



OBSERVATIONS AND   The audit disclosed that Fluor Daniel did not utilize temporary service
                   agreements in an economical and efficient manner nor in accordance with
CONCLUSIONS
                   the policy and goals of the Department's Work Force Restructuring
                   Program. Fluor Daniel was required by the terms of its contract to
                   postpone hiring new employees during work force restructuring, and to
                   retain as many displaced employees as possible by placing them in open
                   positions or by retraining them for future jobs. Despite these
                   requirements, Fluor Daniel used temporary service subcontractors to
                   replace separated employees and to occupy positions which could have
                   been offered to separated employees. These conditions occurred because
                   the Ohio Field Office did not effectively monitor Fluor Daniel's
                   restructuring efforts and its use of temporary service subcontractors. As
                   a result, the Department's restructuring goals were not fully achieved, and
                   the annual cost for temporary service workers increased by
                   $7 million while the Department spent $13.7 million to separate Fluor
                   Daniel employees. Further, the Department reimbursed Fluor Daniel at
                   least $405,000 for unreasonable separation incentives.

                   The audit identified a material internal control weakness that management
                   should consider when preparing its yearend assurance memorandum on
                   internal controls.



                                                                 /s/
                                                         Office of Inspector General




Page 2                                                    Fluor Daniel Fernald's Use of
                                                      Temporary Service Subcontractors
Inappropriate Use of Temporary Workers

Temporary Workers       Fluor Daniel subcontracted for temporary workers to augment its
Were Used to Augment    regular work force and to replace employees who were separated under
the Work Force and to   the Department's Work Force Restructuring Program. Fluor Daniel
Replace Separated Em-   issued a memorandum in December 1994 requesting that division
ployees                 managers identify their anticipated requirements for temporary personnel
                        for FY 1995. The memorandum defined temporary personnel as
                        individuals who might support a division's programs for less than
                        12 months, support special programs, replace teaming partner or
                        subcontractor personnel who might be reassigned, or replace Fluor
                        Daniel employees who might be separated under the restructuring
                        program. The memorandum was issued about two months before Fluor
                        Daniel issued letters to employees who were at risk of separation under
                        the second restructuring.

                        Several managers responded to the memorandum by identifying
                        employees who were expected to separate under the restructuring and
                        for whom replacements would be needed. For example, the
                        Environmental Safety and Health Assurance Department identified four
                        individuals who were expected to separate and would "require
                        replacement by temporary or long-term subcontract support."

                        Most of the temporary workers hired during the restructurings were
                        used for long-term— not temporary— assignments. As of June 30, 1997,
                        Fluor Daniel had a total of 178 temporary workers at the site, including
                        72 who had worked there for less than 1 year, 53 between 1 and 2 years
                        and 53 more than 2 years.

                        We determined that at least 39 of the temporary workers assigned at the
                        site during the second restructuring were placed in identical job
                        classifications as permanent employees who were separated at about the
                        same time. Four examples follow:

                               • Fluor Daniel separated an environmental/lab scientist III on
                                 August 21, 1995, at a cost of $34,103. Three weeks earlier,
                                 Fluor Daniel had obtained the services of an environmental/
                                 lab scientist III from a temporary service subcontractor.

                               • An information/records specialist III was separated on July 3,
                                 1995, at a cost of $17,223. Two days earlier, Fluor Daniel
                                 had obtained the services of an information/records specialist
                                 III from a temporary service subcontractor.




Page 3                                                                      Details of Finding
                                • Fluor Daniel separated an information/records specialist I on
                                  June 26, 1995, at a cost of $16,933. Five days later, Fluor
                                  Daniel acquired the services of an information/records
                                  specialist I from a temporary service subcontractor.

                                • Another information/records specialist I was separated on
                                  July 10, 1995, at a cost of $16,673. Two weeks later, Fluor
                                  Daniel acquired the services of an information/records
                                  specialist I from a temporary service subcontractor.

                         As of June 30, 1997, all four of the subcontractor employees discussed
                         above were still employed as "temporary workers" at the Fernald
                         Project.

                         Fluor Daniel stated that the complexity and diversity of projects and the
                         cost of retraining prevented them from transferring employees from
                         eliminated positions to positions that were filled by temporary service
                         subcontractors. Management stated that each separated employee
                         would have required several months of training to acquire the skills
                         possessed by the temporary workers discussed in the examples.


                         Departmental Order 3309.1A requires that reductions in contractor
Fluor Daniel Was         employment at Department-owned facilities be carefully planned and
Contractually Required   coordinated. A reasonable interpretation of this requirement would
to Carefully Plan and    indicate that Fluor Daniel should have included subcontractor employees
Coordinate Reductions    when it formulated its workforce restructuring plan. Also, the order
in Employment            states that contractors are required to make every effort to postpone
                         hiring and to fill vacancies through the transfer of personnel from
                         positions to be eliminated. Order 3309.1A is incorporated into Fluor
                         Daniel's contract by reference.

                         In addition to Order 3309.1A, the Department issued specific guidance
                         for the work force restructuring at the Fernald Project. The Department
                         stated that its goal was to retain as many individuals as possible who
                         were in positions that were being reduced by placing them in open
                         positions or retraining them for positions that would be required in the
                         future. The guidelines stated, "Employees who possess the minimum
                         education and experience needed to transfer into a position will be
                         considered. Additional training may be required to bring them into full
                         qualification. After selection and transfer, these individuals will be
                         provided site- and job-specific training as determined by the
                         appropriate organization."


Page 4                                                                         Details of Finding
Ohio Field Office Did       The Ohio Field Office did not effectively monitor Fluor Daniel's
Not Effectively Monitor     restructuring activities or its temporary service subcontracts to ensure
Fluor Daniel's Activities   that Fluor Daniel complied with Departmental policy and contract
                            terms. The lack of effective monitoring of Fluor Daniel's
                            restructuring efforts was previously addressed in OIG Report ER-B-
                            96-01, Audit of Work Force Restructuring at the Fernald
                            Environmental Management Project (April 1996). Management
                            stated in response to Report ER-B-96-01 that as part of the lessons
                            learned from the FY 1994 restructuring, it took a much more active
                            role in the implementation of the FY 1995 restructuring plan.

                            The Ohio Field Office monitored Fluor Daniel's hiring of new
                            employees during the second restructuring, but it did not monitor
                            Fluor Daniel's employment of temporary workers. In December
                            1994, just after the announcement of the second restructuring, Fluor
                            Daniel awarded two basic ordering agreements to acquire temporary
                            service workers to augment the regular workforce. One of the basic
                            ordering agreements provided clerical support for assignments of 6 to
                            18 months, and the other provided clerical and technical support for
                            assignments beyond 18 months. However, the Department did not
                            require Fluor Daniel to include temporary workers in its work force
                            restructuring analyses or plans.


                            The Department did not fully achieve its restructuring goals at the
Departmental Goals
                            Fernald Project. The Department reported that 1,007 employees
Were Not Achieved and
                            were separated between FYs 1994 through 1996. However, the
Fluor Daniel's Costs
                            actual reduction in Fluor Daniel's staffing was considerably less than
Were Unreasonable           reported. Fluor Daniel had 2,412 permanent employees before the
                            first restructuring began. As of December 31, 1997, Fluor Daniel had
                            2,014 permanent employees on board. Thus, the actual reduction
                            was 398 employees. Also, a major portion of the savings which
                            might have accrued to the Department as the result of reducing the
                            Fluor Daniel work force by 398 employees was offset by the $7
                            million increase in the annual cost of temporary workers. Therefore,
                            instead of paying $13.7 million to reduce the work force by 1,007
                            employees as reported, the Department actually paid more than $20
                            million to reduce Fluor Daniel's work force by only 398 employees.




Page 5                                                                         Details of Finding
                      Additionally, the Department reimbursed Fluor Daniel at least $405,000
                      for questionable employee separation costs. Fluor Daniel paid $278,000
                      to 14 employees who were released when temporary service
                      subcontractors in the same job classifications could have been released
                      at no cost to the Department. Also, Fluor Daniel hired 7 temporary
                      workers to be permanent employees in job classifications targeted for
                      separations in the first restructuring, then paid them a total of $127,000
                      to separate less than 2 years later under the second restructuring. We
                      question the reasonableness, and therefore, the allowability of the
                      $405,000 reimbursed to Fluor Daniel.


Recommendations       We recommend that the Manager, Ohio Field Office:

                             1. Require Fluor Daniel to discontinue the practice of replacing
                                permanent employees whose jobs are being eliminated with
                                temporary workers and ensure that subcontract labor is
                                considered in future work force restructuring analyses and
                                plans;

                             2. Closely monitor Fluor Daniel's restructuring efforts and
                                temporary service subcontracts to ensure compliance with
                                contractual requirements and Departmental policy and goals;

                             3. Recover $278,000 from Fluor Daniel for separation benefits
                                paid to employees who were released when temporary
                                workers in the same job classifications could have been
                                released at no cost to the Department; and

                             4. Recover $127,000 from Fluor Daniel for separation benefits
                                paid to 7 temporary workers who were hired as permanent
                                employees after the first restructuring and separated less than
                                2 years later under the second restructuring.

Management Reaction   Management concurred with Recommendations 1 and 2. The
                      Contracting Officer has advised Fluor Daniel that it cannot use
                      subcontract labor to replace permanent employees whose jobs are being
                      eliminated. Also, the Contracting Officer has directed Fluor Daniel to
                      consider subcontract labor in future work force restructuring analyses
                      and to show the number of subcontractor employees in weekly strength
                      reports to the Department. Management did not concur with
                      Recommendations 3 and 4, stating that the $405,000 in question was


Page 6                                                  Recommendations and Comments
                   reasonable and allowable. Management stated that the forecast budget
                   reduction did not occur, and a revised staffing strategy was necessary.
                   Fluor Daniel asked employees with needed skills to rescind their
                   voluntary reduction-in-force (VRIF) benefits and continue their
                   employment; however, only 32 employees agreed to rescind their
                   benefits. Thus, subcontract labor was required to augment the staff. In
                   addition, the seven temporary workers who were hired after the first
                   restructuring and separated less than two years later met the criteria
                   established by the Department for VRIF benefit eligibility.


Auditor Comments   We consider management's reaction to Recommendations 1 and 2 to be
                   responsive. However, we disagree with management's determination
                   that the $405,000 in questionable VRIF benefits was reasonable and
                   allowable. Fluor Daniel requested that its division managers identify
                   the need for temporary workers to replace permanent employees about
                   two months before the at-risk letters were sent to employees who were
                   targeted for release. Fluor Daniel should have released the temporary
                   workers instead of offering VRIF benefits to permanent employees in
                   the same job classifications. Also, instead of hiring seven temporary
                   workers after the first restructuring and offering them VRIF benefits in
                   the second restructuring, Fluor Daniel should have retained permanent
                   employees in the same job classifications during the first restructuring.
                   The temporary workers could have been released during the first
                   restructuring at no cost to the Department.




Page 7                                               Recommendations and Comments
Appendix

SCOPE         The audit was performed at the Fernald Project in Fernald, Ohio, from
              May 20, 1997, through January 29, 1998.


METHODOLOGY   To accomplish the audit objective, we:

                     • Reviewed Federal and Departmental guidelines on the use of
                       temporary service subcontractors,

                     • Reviewed Departmental guidance on work force
                       restructuring activities at the Fernald Project,

                     • Held discussions with Departmental and Fluor Daniel
                       personnel regarding the use of temporary service
                       subcontractors;

                     • Evaluated Fluor Daniel's staffing levels before and after the
                       work force was restructured; and

                     • Evaluated the appropriateness and cost of Fluor Daniel's use
                       of temporary service subcontractors during the restructuring
                       of the work force.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental policies, procedures, and
              responsibilities for work force restructuring and the use of temporary
              service subcontractors. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit.

              We relied on computer-processed data in Fluor Daniel's accounting,
              security, and human resources information systems to accomplish the
              audit objective. We assessed the reliability of the data as it pertained to
              the audit objective, including relevant general and application controls
              and found them to be adequate. Based on these assessments, we
              concluded that the data were sufficiently reliable to be used in meeting
              the audit objective.




Page 8                                                       Scope and Methodology
                                                                                IG Report No. ER-B-98-06
                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
